DEPARTMENT OF HOMELAND SECURITY

         Office of Inspector General


                            Letter Report: 

        DHS National Applications Office

             Privacy Stewardship 

                  (Redacted)





Notice: The Department of Homeland Security, Office of Inspector General, has redacted
this report for public release. A review under the Freedom of Information Act will be
conducted upon request.




OIG-08-35                                                            April 2008
                                                          Office ofInspector General

                                                          U.S. Department of Homeland Security
                                                          Washmgton, DC 20528



                                                          Homeland
                                                          Security
                              April 2, 2008

MEMORANDUM FOR.              Charles E. Allen
                             Under Secretary for Intelligence & Analysis
                             Office of IntelliBence & Analysis

FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     National Applications Office Privacy Stewardship

We reviewed the Department of Homeland Security (DHS) National Applications Office
(NAO) privacy stewardship to determine whether NAO's plans and activities instill and
promote a privacy culture and are in compliance with privacy regulations. Privacy
stewardship includes establishing privacy requirements prior to program initiation,
privacy risk assessment and mitigation, and privacy integration in the program operation.

Generally, NAO is making good progress in developing an effective privacy program for
its operations. Specifically, NAO involved the DHS Privacy Office early in program
planning and development of key organizational documents. Also, NAO acknowledges
privacy requirements and states a commitment to privacy in its Charter. By doing so,
NAO signaled its intent to incorporate accepted privacy principles in its policies and
operating procedures. We identified several elements that serve as a framework for
NAO's privacy stewardship. These include ongoing privacy oversight by departmental
privacy and civil liberties officers, public notice of system of records, training ofNAO
personnel, and approved risk assessments. However, a revised Privacy Impact
Assessment and a Civil Liberties Impact Assessment reflecting changes in the Charter are
still necessary prior to NAO becoming operational.

We recommend the Under Secretary for Intelligence & Analysis direct the Director of
NAO to obtain approval by the DHS Privacy Office of an updated program Privacy
Impact Assessment reflecting a signed Charter and standard operating procedures and
approval by the DHS Office for Civil Rights and Civil Liberties ofNAO's Civil Liberties
Impact Assessment.




                     National Applications Office Privacy Stewardship
Background
NAO will perform a centralized role to facilitate access to and proper use of various
intelligence community disciplines and capabilities



                                                           Within legal boundaries,
NAO will share intelligence for domestic scientific, geographic, or environmental
research; homeland security; preparation, response, and mitigation of disasters; terrorism
response and mitigation; border protection; and criminal and civil law enforcement.

The Director of National Intelligence formed a planning team for NAO in September
2006 and designated the DHS Secretary as Executive Agent of NAO in June 2007. By
August 2007, the DHS Secretary delegated management authority to the Office of
Intelligence & Analysis, which together with NAO, issued a Concept of Operations.
DHS intended for NAO to be operational by October 2007. Figure 1, Timeline of Key
Activities, indicates NAO’s developmental activities and initial privacy stewardship
activities from September 2005 to December 2007.

Figure 1: Timeline of Key Activities




                      National Applications Office Privacy Stewardship
                                             2
Results of Review

Framework for Privacy Stewardship is Ready for Implementation
In September 2007, NAO sought agreement from partner Departments to finalize its
Charter. 2 NAO involved the Office of the Director of National Intelligence Civil
Liberties Protection Office, and the DHS Office of Policy, Privacy Office, and Office for
Civil Rights and Civil Liberties to ensure that the Charter adequately addresses DHS
policies and privacy and civil liberties safeguards. Additionally, NAO added other key
elements in developing its framework for privacy stewardship and implementing active
monitoring of privacy compliance.

The elements supporting privacy stewardship include: Charter and standard operating
procedures, ongoing guidance from DHS and the Office of the Director of National
Intelligence, privacy and civil liberties training, and public notice of a system of records.
The left column of Figure 2, Framework for Privacy Stewardship, shows what elements
are needed as the foundation for NAO’s framework. The second column identifies what
NAO is addressing to comply with the legal requirements. In the third column,
comments describe the status or a check (9) indicates completion. The last column
indicates the legal requirement or enabling legislation for oversight groups.

Figure 2: Framework for Privacy Stewardship

    Elements that are Needed            What NAO is Addressing                 Status       Requirement

    1) Legal framework that complies    Charter and standard operating         Pending     Consolidated
    with existing laws, including all   procedures                            signatory    Appropriations
    applicable privacy standards                                             concurrence   Act, 2008, H.R.
                                                                                           2764 §525

    2) External oversight and           Ongoing guidance and                               6 USC §142 (DHS
    monitoring                          monitoring from DHS Privacy              9         Privacy Officer)
                                        Office, DHS Office for Civil                       and §345 (Officer
                                        Rights and Civil Liberties, and                    for Civil Rights and
                                        Office of the Director of National                 Civil Liberties);
                                        Intelligence Civil Liberties                       Intelligence
                                        Protection Officer                                 Reform and
                                                                                           Terrorism
                                        Ongoing guidance from DHS                9         Prevention Act of
                                        Office of Policy, Office of                        2004, P.L. 108-
                                        General Counsel                                    458, §103D; 50
                                                                                           USC 403-1 (ODNI
                                                                                           Civil Liberties
                                                                                           Protection Officer)

Data as of February 26, 2008




2
  The draft NAO Charter identifies Departments of Homeland Security, Interior, Justice, and Defense, and
the Office of the Director of National Intelligence as its signatories.

                            National Applications Office Privacy Stewardship
                                                   3
The first element of privacy stewardship is a legal framework that includes a Charter and 

standard operating procedures. The Charter ensures NAO’s compliance with all laws, 

policies and procedures that protect privacy, civil rights, and civil liberties.

The Charter is a binding agreement among the signatories that describes NAO’s mission, 

infrastructure for operational oversight, and roles and responsibilities of stakeholders, 

partners, and customers. Both the Charter and standard operating procedures further 

define partner and customer interactions because NAO will work with members of the 

intelligence community and users outside the intelligence community to support civil, 

homeland security, and law enforcement applications. These procedures embed privacy 

protections into NAO’s daily operations, such as





The second element supporting NAO’s privacy stewardship is external oversight and
monitoring. The DHS Privacy Office, DHS Office for Civil Rights and Civil Liberties,
and Office of the Director National Intelligence-Civil Liberties Protection Office provide
guidance and monitoring to ensure compliance with privacy and civil liberties
protections. The DHS Offices of Policy and General Counsel provide external oversight
concerning policy and legal matters. The National Applications Executive Committee is
the oversight body for NAO. The three Committee chairs, the Deputy Secretary of DHS,
the Deputy Secretary of the Interior, and the Principal Deputy Director of National
Intelligence will be aided in their oversight roles by their privacy, civil liberties, and civil
rights advisors.

Figure 2: Framework for Privacy Stewardship (continued)

Elements that are Needed             What NAO is Addressing               Status     Requirement

3) Training in privacy awareness     Privacy Awareness and                          Privacy Act of
and privacy and civil liberties in   intelligence activity training for     9       1974, as
intelligence activities              personnel including rules,                     amended, 5 USC
                                     requirements, and penalties for                §552a (e)(9)
                                     violations

                                     Customer training                    Planned

4) Published Notice of System of     System of Records Notice                       Privacy Act of
Records                              covered by Homeland Security           9       1974, as
                                     Operations Center                              amended, 5 USC
                                                                                    §552a (e)(4)

Data as of February 26, 2008




                          National Applications Office Privacy Stewardship
                                                 4
The third element in NAO’s framework for privacy stewardship is training on privacy
awareness and intelligence oversight activity.3 As it becomes operational, NAO is
responsible for properly administering privacy safeguards for the public and the
intelligence community. To comply with the Privacy Act of 1974, as amended, NAO
must ensure all personnel including customers are properly trained and aware of potential
privacy issues and safeguards. 4 In September 2007, NAO complied with the Act’s
requirements by providing privacy training, which included rules of conduct and
consequences for privacy noncompliance.

To comply with its draft Charter, NAO must train personnel on the proper conduct of
intelligence oversight. The DHS Office of General Counsel provided this training to
NAO personnel in September 2007. As part of NAO’s new employee orientation and
ongoing training programs, personnel will complete both privacy awareness and
intelligence oversight activity training. NAO also plans to develop specific privacy
training and guidance for its nontraditional customers and applications.

The fourth element of the privacy stewardship framework is a public notice of NAO’s
system of records. A system of records is a group of records under the control of an
agency from which information is retrieved by the individual’s name or some other
identifier assigned to the individual. The Privacy Act of 1974, as amended, 5 USC 552a
(e)(4), requires each agency to publish a System of Records Notice (SORN) in the
Federal Register describing the purpose of the system, the types of information contained
therein, and details for individuals to gain access to information relevant to the individual
stored in the system. NAO’s proposed system of records is covered under the SORN for
the Homeland Security Operations Center, 70 F.R. 20061 (April 18, 2005). As NAO
develops its products and services, it will need to review its activities to ensure that any
new information that it collects and maintains is appropriately described by the SORN.

NAO Risk Assessments are Being Finalized
Two different types of risk assessments on NAO’s program and its information need to
be completed. Through a Privacy Impact Assessment, the DHS Privacy Office evaluates
possible privacy risks and discusses the mitigation of those risks at the beginning and
throughout the development life cycle of a program that handles personal data. Through a
Civil Liberties Impact Assessment, the DHS Office for Civil Rights and Civil Liberties
will ensure that the domestic use of intelligence capabilities and products complies with
constitutional, statutory, regulatory, policy, and other requirements relating to the civil
rights and civil liberties of individuals affected.



3
  NAO requires training regarding Executive Order 12333 United States Intelligence Activities for personnel
so its intelligence activities are conducted in a manner that protects the Constitutional rights and privacy of
U.S. persons. 

4
  The Privacy Act of 1974, as amended, provides protections and handling requirements for records

containing information about individuals that are collected and maintained by the federal government and are 

retrieved by a personal identifier. 


                          National Applications Office Privacy Stewardship
                                                 5
The left column of Figure 3, NAO Risk Assessments, indicates that two different types of
risk assessments are needed. The second column indicates the areas of risk that NAO is
reviewing. In the third column, comments describe the status or a check (9) indicates
completion. The last column lists the requirements for privacy assessments and for the
review of civil rights and civil liberties protections in NAO activities.

Figure 3: NAO Risk Assessments

What Assessments Are Needed           What NAO is Reviewing          Status       Requirement

1) Approved Privacy Impact            Privacy risks
Assessments                            a) Program                       9       E-Government Act
                                       b) Program revisions          Planned    of 2002, P.L. 107-
                                            resulting from updated              347, §208 (b)
                                            Charter and standard
                                            operating procedures,
                                            including customer/
                                            partner processes

2) Approved Civil Liberties Impact    Civil liberties risks          Pending    6 USC §345
Assessment                                                           approval   (Officer for Civil
                                                                                Rights and Civil
                                                                                Liberties)


Data as of February 26, 2008

The first type of assessment, a Privacy Impact Assessment, is required by section 208 of
the E-Government Act of 2002. In June 2007, NAO submitted a completed Privacy
Impact Assessment to the DHS Privacy Office. This assessment described how NAO
would comply with the Privacy Act of 1974, as amended. However, NAO’s initial
program plans will change because it is still finalizing its Charter, standard operating
procedures, and customer partner processes to gain concurrence by stakeholders and
partners. Therefore, NAO plans to update its initial Privacy Impact Assessment to reflect
those changes.

The second type of assessment, Civil Liberties Impact Assessment, is the approach that
DHS Office for Civil Rights and Civil Liberties is using to satisfy its assessment
requirements under the Implementing Recommendations of the 9/11 Commission Act of
2007 (Pub. L. 110-53). The Office for Civil Rights and Civil Liberties is finalizing this
assessment to ensure that civil liberties are not diminished by programs aimed at securing
the homeland.

The organizational framework for NAO is still under development and waiting for final
approval. NAO is a complex organization involving many stakeholders, partners and
constituents. All of these groups have different concerns and priorities. The Charter,
privacy and civil liberties risk assessments, and other key documents create a
framework that shows how NAO will be capable of accomplishing an important mission
that supports existing privacy laws and policies. However, for a framework of privacy
stewardship to be realized, risk assessments must be based upon NAO’s preliminary

                         National Applications Office Privacy Stewardship
                                                6
activities to instill a culture of privacy and the standard operating procedures and the
finalized Charter.

Recommendations
We recommend that the Under Secretary for Intelligence & Analysis direct the Director
of NAO to:

       Recommendation #1: Obtain approval by the DHS Privacy Office of an updated
       program Privacy Impact Assessment reflecting a signed Charter and standard
       operating procedures.

       Recommendation #2: Obtain approved NAO’s Civil Liberties Impact
       Assessment by the DHS Office for Civil Rights and Civil Liberties.

Management Comments and OIG Analysis
We obtained written comments on a draft of this report from the Under Secretary for
Intelligence & Analysis. We reviewed the Under Secretary’s suggestions and made
changes where appropriate. We have included a copy of the comments in Appendix A.

The Under Secretary for Intelligence & Analysis concurred with our findings and
recommendations. We consider our recommendations resolved, but open pending our
review of actions taken by NAO.

*********************

The review is based on analysis of applicable documentation and interviews with
personnel and officials of relevant agencies and institutions. We conducted our audit
from October 19, 2007 to February 29, 2008 under the authority of the Inspector General
Act of 1978, as amended, and according to generally accepted government audit
standards.




                      National Applications Office Privacy Stewardship
                                             7
Appendix A
Management Comments




               National Applications Office Privacy Stewardship
                                      8
Appendix B
Major Contributors to this Report

Special Projects Division

Marj Leaming, Director
R. Steve Durst, Audit Manager
Michael Galang, Management and Program Analyst
Kyle Peterson, Management and Program Assistant
Gretchen Trygstad, Management and Program Assistant

Anthony Nicholson, Referencer




                    National Applications Office Privacy Stewardship
                                           9
Appendix C
Report Distribution

Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary for Intelligence and Analysis
Deputy Assistant Secretary, Mission Integration
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative Affairs
Acting Director, National Applications Office
Director, GAO/OIG Liaison Office
Office of Intelligence & Analysis Audit Liaison
Chief Privacy Officer
Officer for Civil Rights and Civil Liberties


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




                      National Applications Office Privacy Stewardship
                                             10
Appendix C
Report Distribution




 Additional Information and Copies
 To obtain additional copies of this report, call the Office of Inspector General
 (OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
 site at www.dhs.gov/oig.


 OIG Hotline
 To report alleged fraud, waste, abuse or mismanagement, or any other kind of
 criminal or noncriminal misconduct relative to department programs or
 operations:

     •    Call our Hotline at 1-800-323-8603;
     •    Fax the complaint directly to us at (202) 254-4292;
     •    Email us at DHSOIGHOTLINE@dhs.gov; or
     •	   Write to us at:
            DHS Office of Inspector General/MAIL STOP 2600, Attention:
            Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
            Washington, DC 20528.

 The OIG seeks to protect the identity of each writer and caller.
